No. 20-1009

In the Supreme Court of the United States
DAVID SHINN, ET AL.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,
Respondents.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
AMICI CURIAE BRIEF OF BIPARTISAN FORMER
DEPARTMENT OF JUSTICE OFFICIALS AND FORMER
FEDERAL PROSECUTORS, IN SUPPORT OF RESPONDENTS

AARON KATZ
Counsel of Record
DOMINIQUE R. RIOUX
ROPES & GRAY LLP
Prudential Tower
800 Boylston Street
Boston, MA 02199-3600
(617) 951-7000
Aaron.Katz@ropesgray.com

TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE ................................. 1
SUMMARY OF THE ARGUMENT ............................... 1
ARGUMENT ....................................................................... 4
I.
The Court Has Recognized The Importance Of
Public Confidence In Criminal Jury Verdicts
And Capital Sentencing Decisions ........................... 4
II. Meaningful Judicial Review Of Substantial
Ineffective Assistance Of Trial Counsel Claims
Is Necessary To Maintain Public Confidence In
Jury Verdicts And Capital Sentencing Decisions . 6
III. Petitioner’s Construction Of Section 2254(e)(2)
Would Turn Martinez Into A Hollow Precedent,
To The Detriment Of Public Confidence In The
Criminal Justice System............................................ 9
CONCLUSION ................................................................. 11
APPENDIX ..................................................................... A-1

(I)

II
TABLE OF AUTHORITIES

Page(s)
Cases:
Davila v. Davis, 137 S. Ct. 2058 (2017) ........................ 8
Gideon v. Wainwright, 372 U.S. 335 (1963) ............. 6, 7
Harrington v. Richter, 562 U.S. 86 (2011) ................. 10
Kimmelman v. Morrison, 477 U.S. 365 (1986) ........... 7
Kyles v. Whitley, 514 U.S. 419 (1995)........................... 5
Martinez v. Ryan, 566 U.S. 1 (2012) ................. passim
McMann v. Richardson, 397 U.S. 759 (1970) ............. 6
Peña-Rodriguez v. Colorado, 137 S. Ct. 855
(2017) ....................................................................... 4, 5
Porter v. McCollum, 558 U.S. 30 (2009) ...................... 6
Strickland v. Washington, 466 U.S. 668 (1984) .......... 5
Winship, In re, 397 U.S. 358 (1970) .............................. 5
Constitutional and statute:
U.S. Const. Amend. VI ................................................. 6
28 U.S.C. 2254(e)(2) ................................................... 3, 4
Miscellaneous:
Erica J. Hashimoto, The Price of Misdemeanor
Representation, 49 Wm. & Mary L. Rev. 461
(2007) ......................................................................... 7

INTEREST OF AMICI CURIAE

1

Amici are former United States Department of
Justice officials and former federal prosecutors, many
of whom served as United States Attorneys or had
leadership roles in United States Attorney’s Offices.2
Amici are a bipartisan group with diverse political beliefs and judicial philosophies. Amici share, however,
an overarching interest in ensuring that the criminal
justice system functions in a manner that inspires public confidence. From their experience representing the
United States and their private-sector work on criminal
law issues, amici know that the criminal justice system
cannot function effectively without the public’s confidence. For the reasons explained herein, this case profoundly impacts amici’s interest.
SUMMARY OF THE ARGUMENT
The criminal justice system depends upon public
confidence. If the public lacks confidence in the criminal justice system, the system loses its moral force and
cannot effectively inculcate respect for the criminal
law.
A defendant’s right to a fair jury trial is the bedrock of our criminal justice system. If the public is to
have confidence in the criminal justice system as a
whole, the public must have confidence in the reliability
of criminal jury verdicts and capital sentencing deci1

All parties have provided blanket consent to the filing of
amicus curiae briefs. No counsel for any party authored this brief
in whole or in part, and no person or entity, other than amici curiae
or their counsel made a monetary contribution intended to fund
the preparation or submission of this brief.
2

The amici are individually listed in the Appendix.

(1)

2
sions. Trial defects that create an unacceptably high
risk of wrongful conviction—or, in a capital case, a
wrongful death sentence—erode such confidence. And
trial defects that disproportionately impact economically disadvantaged defendants are particularly corrosive,
because they lead people to believe that the system is
stacked against the poor and that defendants often are
convicted (or sentenced to death) not because they actually are guilty (or deserve to be executed) but because they cannot afford a good lawyer. This case puts
these public confidence concerns squarely at issue.
In Respondent Barry Jones’s case, the federal district court found that Jones’s court-appointed trial
counsel conducted a deficient investigation into the
prosecution’s felony murder and related charges. The
federal district court found that trial counsel’s deficient
performance deprived the jury of substantial evidence
of Jones’s innocence, rendering Jones’s conviction and
death sentence unworthy of confidence and entitling
Jones to a new trial. See, e.g., J.A. 264 (“[Trial] counsel’s deficient investigation pervaded the entire evidentiary picture presented at trial, resulting in a ‘breakdown in the adversary process that renders the result
[of Jones’s trial] unreliable.’ ” (quoting Strickland v.
Washington, 466 U.S. 668, 687 (1984))). With respect to
Respondent David Ramirez, the Ninth Circuit held that
Ramirez had demonstrated a substantial claim that his
trial counsel, a public defender with no prior capital trial experience, conducted a prejudicially deficient investigation into mitigation evidence, including the severity
of Ramirez’s intellectual disability. See, e.g., J.A. 517518 (pointing to trial counsel’s failure to discover and
introduce evidence that Ramirez is “borderline mental-

3
ly retarded”). Neither Respondent Jones nor Respondent Ramirez properly raised their ineffective assistance of trial counsel claims during their state court
collateral review proceedings. This, however, was because their post-conviction counsel likewise failed to
provide competent representation, which under Martinez v. Ryan, 566 U.S. 1 (2012), excuses their procedural default. Nevertheless, Petitioner argues that 28
U.S.C. 2254(e)(2) should be construed in a manner that
precludes any meaningful federal judicial review of
Jones’s and Ramirez’s ineffective assistance of trial
counsel claims.
In Petitioner’s words, Section
2254(e)(2) “should have doomed their habeas claims.”
Pet. Br. 40.
Judicial review of ineffective assistance of trial
counsel claims plays a critical role in maintaining public
confidence in the criminal justice system. Ineffective
assistance of trial counsel claims tend to involve indigent defendants and court-appointed counsel, the latter
of whom are often over-worked and under-resourced.
If a defendant’s trial counsel—whether due to a lack of
competence, lack of care, or lack of adequate resources—fails to discover exculpatory evidence that
substantially undermines the prosecution’s theory of
guilt or argument for a death sentence, it compromises
the essential truth-seeking function of trial. The reliability of the verdict or capital sentencing decision is diminished, and the risk of a wrongful conviction or
wrongful death sentence increases dramatically. Postconviction judicial review of such ineffective assistance
of trial counsel claims provides assurance to the public
that a defendant will not be imprisoned—or, even
worse, put to death—simply because he could not af-

4
ford, and was not provided by the state, effective trial
counsel.
Judicial review of a constitutional claim, however,
is not meaningful if it is effectively impossible for the
claimant to obtain relief on it. Under Petitioner’s construction of 28 U.S.C. 2254(e)(2), a federal habeas petitioner who meets Martinez’s “cause-and-prejudice” test
would not have any way to obtain relief on an ineffective assistance of trial counsel claim that requires proof
extrinsic to the trial record, which most such claims do.
In the most extreme scenario, a habeas petitioner could
make at a Martinez “cause-and-prejudice hearing” an
uncontroverted factual showing that his trial counsel
incompetently failed to discover evidence strongly indicating innocence, and yet the federal habeas court still
would be required to deny the petitioner any relief. Petitioner would transform Martinez into a hollow precedent that offers a federal habeas petitioner an empty
promise of judicial review. This is anathema to public
confidence in the criminal justice system.
ARGUMENT
I.

THE COURT HAS RECOGNIZED THE IMPORTANCE
OF PUBLIC CONFIDENCE IN CRIMINAL JURY
VERDICTS AND CAPITAL SENTENCING DECISIONS

The criminal justice system cannot function effectively without the public’s confidence. The Court has
identified public confidence in criminal jury verdicts as
particularly important. In Peña-Rodriguez v. Colorado, 137 S. Ct. 855, 869 (2017), the Court stated that
“confidence in jury verdicts * * * is a central premise of
the Sixth Amendment trial right.”

5
The importance of maintaining public confidence in
the reliability of jury verdicts and capital sentencing
decisions has animated some of the Court’s most important criminal law decisions. For example, in In re
Winship, 397 U.S. 358, 364 (1970), the Court explained
that “the reasonable-doubt standard is indispensable to
command the respect and confidence of the community
in applications of the criminal law.” A lesser standard,
the Court explained, would “dilute[ ]” the “moral force
of the criminal law” because it would “leave[] people in
doubt whether innocent men are being condemned.”
Ibid. In Peña-Rodriguez, the Court held that “the
Sixth Amendment requires that [Federal Rule of Evidence 606(b)’s] no-impeachment rule give way in order
to permit the trial court to consider” evidence that a
juror “ma[de] a clear statement [during deliberations]
that indicates he or she relied on racial stereotypes or
animus to convict a criminal defendant.” 137 S. Ct. at
869. The Court explained its decision as “necessary to
prevent a systemic loss of confidence in jury verdicts.”
Ibid. And, in cases where the jury or court was wrongly
deprived of exculpatory or mitigation evidence, either
because the prosecution suppressed it or the defendant’s trial counsel failed to discover it, the Court has
held that the defendant is entitled to a new trial or sentencing hearing if the new evidence undermines confidence in the jury’s verdict or the capital sentencing decision. See, e.g., Kyles v. Whitley, 514 U.S. 419, 435
(1995) (holding that a defendant is entitled to a new trial if suppressed exculpatory evidence “could reasonably
be taken to put the whole case in such a different light
as to undermine confidence in the verdict”); Strickland
v. Washington, 466 U.S. 668, 694 (1984) (holding that
trial counsel’s deficient performance prejudices the de-

6
fendant if it “undermine[s] confidence in the outcome”
of the trial); see, e.g., Porter v. McCollum, 558 U.S. 30,
44 (2009) (vacating death sentence because the new
mitigation evidence resulted in a lack of confidence in
the original sentencing decision).
II. MEANINGFUL JUDICIAL R EVIEW OF SUBSTANTIAL I NEFFECTIVE A SSISTANCE O F T RIAL
COUNSEL CLAIMS IS NECESSARY TO MAINTAIN
PUBLIC C ONFIDENCE IN JURY VERDICTS AND
CAPITAL SENTENCING DECISIONS
The Sixth Amendment guarantees a criminal defendant the right to “have the Assistance of Counsel for
his defence.” U.S. Const. Amend. VI. In Gideon v.
Wainwright, 372 U.S. 335, 345 (1963), the Court recognized that, if a defendant is “[l]eft without the aid of
counsel he may be * * * convicted upon incompetent evidence, or evidence irrelevant to the issue.” “Without
[counsel],” the Court explained, “though [the defendant] be not guilty, he faces the danger of conviction because he does not know how to establish his innocence.”
Ibid.
A defendant who raises a claim that his trial counsel incompetently failed to discover exculpatory evidence demonstrating his innocence, or mitigation evidence demonstrating that he should be spared the
death penalty, is not asking for relief on a technicality.
At bottom, the defendant is asserting that the public
cannot have confidence in the reliability of the jury’s
guilty verdict or the death sentence, because the jury
and court were deprived of essential exculpatory or
mitigation evidence. “It has long been recognized,” of
course, “that the right to counsel is the right to the effective assistance of counsel.” McMann v. Richardson,

7
397 U.S. 759, 771 n.14 (1970). Not surprisingly, the
Court’s decisions addressing ineffective assistance of
trial counsel claims express the same concern that the
Court expressed in Gideon regarding the risk of wrongful convictions. For instance, in Kimmelman v. Morrison, 477 U.S. 365, 374 (1986), the Court stated that
“[t]he essence of an ineffective-assistance claim is that
counsel’s unprofessional errors so upset the adversarial
balance between defense and prosecution that the trial
was rendered unfair and the verdict rendered suspect.”
And in Martinez v. Ryan, 566 U.S. 1, 12 (2012), the
Court stated that effective trial counsel is necessary “to
ensure that the proceedings serve the function of adjudicating guilt or innocence.”
An ineffective assistance of trial counsel claim alleging the failure to discover substantially exculpatory
or mitigating evidence is perhaps the quintessential
claim for which post-trial judicial review is essential.
First, such a claim fundamentally calls into question the
factual accuracy of the jury’s verdict or the moral reliability of the death sentence. Second, economically disadvantaged defendants are disproportionately at risk of
being denied the effective assistance of counsel, because the court-appointed counsel that they receive are
often too over-worked and too under-resourced—and
sometimes too inexperienced—to investigate the defendant’s case and to adequately prepare the trial defense that the defendant deserves.3 See, e.g., Erica J.
3

An effective trial defense cannot be slapped together at the
eleventh hour. Even where a defendant is actually innocent,
demonstrating the evidentiary flaws in the prosecution’s theory of
guilt requires trial counsel to conduct a competent, significant pretrial investigation into the facts. In a capital case, an adequate

8
Hashimoto, The Price of Misdemeanor Representation,
49 Wm. & Mary L. Rev. 461, 464 (2007) (“Outrageously
excessive caseloads have compromised the quality of
indigent defense representation. Nationwide, even
public defenders representing defendants charged with
serious felonies sometimes represent as many as 500
clients per year.”). Without meaningful judicial review
of such claims, the criminal justice system cannot hope
to inspire public confidence in verdicts or capital sentencing decisions.
It is against this backdrop that the Court decided
Martinez. Martinez re-affirmed that “[t]he right to the
effective assistance of counsel at trial is a bedrock principle in our justice system” because effective counsel is
necessary “to ensure that [trial] proceedings serve the
function of adjudicating guilt or innocence.” 566 U.S. at
12. The “chief concern” underlying the Court’s decision in Martinez was that a “meritorious claim[]” of ineffective assistance of trial counsel should “receive review by at least one state or federal court” and should
not “escape review altogether” merely because the defendant lacked adequate assistance of counsel during
his state-court collateral appeals. Davila v. Davis, 137
S. Ct. 2058, 2067 (2017).

investigation into mitigating circumstances almost always takes
substantial time and care.

9
III. PETITIONER’S CONSTRUCTION OF SECTION
2254(E)(2) WOULD TURN MARTINEZ I NTO A
HOLLOW PRECEDENT, TO THE DETRIMENT OF
PUBLIC C ONFIDENCE IN THE CRIMINAL JUSTICE
SYSTEM
In holding that state court post-conviction proceedings will not bar federal habeas review of a substantial
ineffective assistance of trial counsel claim if the defendant lacked effective post-conviction counsel, Martinez sent a strong salutary message: the criminal justice system values the truth-seeking function of criminal jury trials and thus the reliability of criminal jury
verdicts and capital sentencing decisions. Petitioner’s
proposed construction of Section 2254(e)(2) would reverse that message.
Most ineffective assistance of trial counsel claims
require extrinsic factual development. Indeed, the type
of ineffective assistance counsel claim that most seriously calls into question the reliability of the jury’s verdict—a claim alleging trial counsel incompetently failed
to discover exculpatory evidence strongly indicating
the defendant’s innocence and undermining the prosecution’s trial evidence—is the type that most requires
extrinsic factual development. The same is true of an
ineffective assistance of trial counsel claim that involves the failure to discover mitigation evidence relevant to a capital sentencing decision. Such claims, of
course, are precisely the ones that Petitioner’s proposed construction of Section 2254(e)(2) would effectively preclude.
The rules governing federal habeas corpus review
seek to balance two important public interests: the finality of convictions and the reliability of verdicts. Sec-

10
tion 2254 “reflects the view that habeas corpus is a
‘guard against extreme malfunctions in the state criminal justice systems.’ ” Harrington v. Richter, 562 U.S.
86, 102–103 (2011) (quoting Jackson v. Virginia, 443
U.S. 307, 332 n.5 (1979)). Ironically, the constitutional
claims that represent the most extreme trial malfunctions are the claims to which Petitioner’s position would
deny judicial review.
In its merits brief, Petitioner calls Section 2254(e)(2) an “insuperable obstacle” to Respondents’ claims, no matter how meritorious those claims
are. Pet. Br. 40 (internal quotations omitted).
Notwithstanding that this case involves death sentences,
Petitioner brushes away as a “routine occurrence” that
a meritorious ineffective assistance of trial counsel
claim “may escape one [procedural] bar only to fall victim to another.” Id. at 40-41. Petitioner essentially
acknowledges that its proposed construction of Section 2254(e)(2) would “divest[] Martinez of its relevance.” Id. at 36. If that strikes the Court as too odd,
Petitioner says, the Court should “revisit Martinez.”
Ibid. This, of course, is simply Petitioner’s way of saying that the Court should just overrule Martinez.
The Court should reject Petitioner’s call to hollow
out or overrule Martinez. Petitioner’s position is not
based on any plausible comity concerns. Martinez provides a procedural default exception in a narrow set of
circumstances—where, for reasons that are not the
federal habeas petitioner’s fault, his ineffective assistance of trial counsel claim was not properly raised during the available state court post-trial process and,
therefore, was never addressed by the state courts.
Petitioner’s position is based instead on hypothetical

11
administrative concerns that it believes should take super-priority over the judicial review that is necessary
to ensure that the jury’s verdict (or the trial court’s
sentence of death) is one in which the public can have
confidence. This cannot be what Congress intended
when it enacted Section 2254(e)(2).
If the Court were to adopt Petitioner’s position, it
would send the message that federal law is indifferent
to whether a substantial claim of ineffective assistance
of trial counsel receives any meaningful judicial review.
This would cause incalculable damage to public confidence in the criminal justice system.
CONCLUSION
For the foregoing reasons, amici curiae urge the
Court to reject Petitioner’s arguments and to affirm the
judgments of the court of appeals below.
Respectfully submitted.
AARON KATZ
Counsel of Record
DOMINIQUE R. RIOUX

ROPES & GRAY LLP
Prudential Tower
800 Boylston Street
Boston, MA 02199-3600
(617) 951-7000
aaron.katz@ropesgray.com
SEPTEMBER 20, 2021

APPENDIX

A-1
APPENDIX A
Brian R. Blais (former Co-Chief of the General Crimes
Unit and Deputy Chief of Criminal Appeals, United
States Attorney’s Office for the Southern District of
New York)
Walter Brown (former Assistant United States Attorney, Central District of California)
James M. Cole (former Deputy Attorney General of the
United States)
Michael J. Connolly (former Assistant United States
Attorney, District of New Hampshire)
William B. Cummings (former United States Attorney,
Eastern District of Virginia)
John Geise (former Chief of the Professional Misconduct Unit, Office of the Deputy Attorney General,
United States Department of Justice; former Assistant
United States Attorney, District of Maryland and District of Columbia)
Cory S. Flashner (former Assistant United States Attorney, District of Massachusetts)
Peter E. Gelhaar (former Assistant United States Attorney, District of Massachusetts)
Deborah R. Gilg (former United States Attorney, District of Nebraska)
Melinda Haag (former United States Attorney, Northern District of California)

A-2
Thomas Hibarger (former Chief of the Criminal Division, United States Attorney’s Office for the District of
Columbia)
Laura G. Hoey (former Assistant United States Attorney, Eastern District of Arkansas)
Miranda Hooker (former Assistant United States Attorney, District of Massachusetts)
Stephen G. Huggard (former Assistant United States
Attorney, District of Massachusetts)
Marcos Daniel Jiménez (former United States Attorney, Southern District of Florida)
William H. Jordan (former Senior Counsel to the Associate Attorney General of the United States)
Peter D. Keisler (former Acting Attorney General of
the United States)
William C. Killian (former United States Attorney,
Eastern District of Tennessee)
Frank A. Libby (former Assistant United States Attorney, District of Massachusetts)
Mary B. McCord (former Acting Assistant Attorney
General for National Security, U.S. Department of Justice; former Chief of the Criminal Division, United
States Attorney’s Office for the District of Columbia)
Michael G. McGovern (former Assistant United States
Attorney, Southern District of New York)

A-3
Joan McPhee (former Assistant United States Attorney, Southern District of New York)
Barbara L. McQuade (former United States Attorney,
Eastern District of Michigan)
Brien T. O’Connor (former Chief of the Public Corruption and Special Prosecutions Unit, United States Attorney’s Office for the District of Massachusetts)
Alexandre H. Rene (former Trial Attorney, Fraud Section of the Criminal Division of the United States Department of Justice; former Assistant United States
Attorney, District of Columbia)
Mark E. Robinson (former Deputy Chief of the Criminal Division, United States Department of Justice)
Nicholas C. Theodorou (former Assistant United States
Attorney, District of Massachusetts)

